UHiTEDSTAm COUrTof APPEALS FiFih ClRCUlt

UuDGMKNT

APPEMDfX

A

pm& *1

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

December 11, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc
No. 19-11076

Mitchell Wagner v. TDCJ, et al
USDC No. 1:15-CV-177

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41
govern costs, rehearings, and mandates.
5th Cir. R. 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court' s opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5™ Cir. R. 35 for a discussion
of when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing-en banc.
Direct Criminal Appeals.
5th Cir. R. 41 provides that a motion
for a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon reguest.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal,' and • are consideringfiling 'a' petition ’" for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

[

Sincerely,
LYLE W. CAYCE, Clerk

CJ/Uhr£j~$
By:
Charles B.Whitney,Deputy Clerk
Enclosure(s)
Mr. Benjamin Johnson Phillips
Mr. Mitchell Wagner

®ntteb States! Court of Appeals!
for tfje Jfiftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
December 11,2020
. No. 19-11076

Lyle W. Cayce
Clerk

Mitchell Wagner,
Plaintiff—Appellant,
versus

!

Archie D. Scarborough; Keith F. Meeks; Stanley J.
Baldwin; Richard Burgess; James Finley; Clayton
Wheeden; Texas Kairos Organization,

4

Defendants—Appellees.
!

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:15-CV-177

Before Stewart, Graves, and Higginson, Circuit Judges.
Per Curiam:*
........ Mitchell Wagner, Texas prisoner # 1543049, moves for leave to
proceed in forma pauperis (IFP) in this appeal and moves for the
appointment of counsel. By moving to appeal IFP, Wagner challenges the

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.
f

‘ ^

No. 19-11076

certification that his appeal is not in good faith. See Baugh v. Taylor, 117 F.3d
197, 202 (5th Cir. 1997).
The; notice of appeal failed to identify an existing judgment or order
from which Wagner is. appealing, and Wagner has not identified a
nonfrivolous issue on appeal. See Howard v. King, 707 F.2d 215,220 (5th Cir.
1983). Accordingly, the motion for leave to appeal IFP is DENIED, and the
appeal is DISMISSED as frivolous. See Baugh, 117 F.3d at 202 n.24; 5th
Cir. R. 42.2. Our dismissal of this appeal counts as one strike under
28 U.S.C. § 1915(g). See Coleman v. Tollefson, 135 S. Ct. 1759,1763-64 (2015).
Wagner is WARNED that if he accumulates three strikes, he will not be
allowed to proceed IFP in any civil action or appeal filed while he is detained
or incarcerated in any facility unless he is under imminent danger of serious
physical injury. Hismotion for the appointment of counsel is DENIED.

2

(B) tdc0ain5 - PASSPORT

Monday, January 4, 2021, 16:00:54 PM

01/04/21
TEXAS DEPARTMENT OF CRIMINAL JUSTICE
CSINIB02/CINIB02
16:00:51
IN-FORMA-PAUPERIS DATA
AIN5/ES00018
INDIGENT
DTE:
12/09/15
TDCJ#: 01543049 SID#: 02396387 LOCATION: ROBERTSON
BEGINNING PERIOD: 07/01/20
NAME: WAGNER,MITCHELL WINDELL
PREVIOUS TDC J NUMBERS: 0087564,7 00995563
0.00
0.00 3MTH TOT DEP:
0.00 TOT HOLD AMT:
CURRENT BAL:
0.00
0.00 6MTH AVG DEP:
0.00 6MTH AVG BAL:
6MTH DEP:
MONTH
HIGHEST
BALANCE
TOTAL
DEPOSITS
MONTH HIGHEST BALANCE TOTAL DEPOSITS
0.00
0.00
09/20
.0.00
0.00
12/20
0.00
0.00
08/20
0.00
0.00
11/20
0.00
0.00
07/20
0.00
0.00
10/20

S
STATE OF TEXAS COUNTY OF 3
V
, I CERTIFY THAT THIS DOCUMENT IS A TRUE,
ON THIS- THE
DAY OF^Gov^i
COMPLETE,AND UNALTERED COPY MADE BY ME OF INFORMATION CONTAlfllED IR^HE,
COMPUTER DATABASE REGARDING THE OFFENDER'S ACCOUNT. NP SIG: Jo'---OR SID NUMBER:
PF1-HELP PF3-END. ENTER NEXT TDCJ NUMBER:
8

j

SHAWN M. ELLISON
.
Notary Public, State of Texas •
NOTARY ID # 129636642 |
My Commission Exp 10-30-231
Notary Without Bond f

. «•
-J
*■

‘i

•"V

i '.r
- ■*’ '■* £

- -- Vl V

*

£»**»»*.*»£*•,>,* <■»*«•*s,**»

, ,,

»
S
H02Mj4.MmVAH2
•' •••> t
» «b>'sT!o sisf? .jjifla'i ^sl«H /V ‘
., •,

i

3

1

1
”i

■\
■

'» •

I £$-0Mt nsf3 nofotoD y« V.

|

!J

C *.*J ^ n <

*
1*

bno8 fcjoriJiW 'fisjoi*; ’

'^CJW *

#«j. $***.* ,** y *«» *‘f«

■'

•i

</q

!

*

i
■:

u

?

i

I

■i

■f

)

$

1

i

f
1

j

■I
t

- -<r.

x- ‘'

0*

0 o>‘
, Lr

Motion Requesting IPpnsSRiPT GR/wisD
Proceeb/NG in Forma Pau Pe/tis

APPENDIX

r

fhG£*Z

Case: l:15-cv-177

Document: 84

V'

Mitchell Wagner #1543049
TDCJ Robertson Unit
12071 FM 3522
Abilene, TX 79601

■i

\

J

f

if

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
MITCHELL W. WAGNER,

§
§
§
§

TDCJ ID No. 01543049,
SID No. 02396387,
Previous TDCJ ID Nos. 00875647,

00995563, §
§

Appellant, §
§

§ CIVIL ACTION NO. 1:15-CV-177-C

v.

§

TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, et al.,

§ USCA NO. 19-10298
§
§

Appellee(s). §
ORDER
Before the Court is Appellant’s Motion Requesting Transcript at Government Expense
filed April 17, 2019. 28 U.S.C. § 753(f) provides that “[f]ees for transcripts furnished in other
proceedings to persons permitted to appeal in forma pauperis shall also be paid by the United
States if the trial judge or circuit judge certifies that the appeal is not frivolous (but presents a
substantial question.)” Id. The Court previously granted Appellant leave to proceed in forma
pauperis on appeal. Implicit in that decision was a finding that the appeal is taken in good faith.
Consequently, Appellant is entitled to a free transcript in order to prosecute his appeal.
The Court finds that Appellant’s Motion Requesting Transcript at Government Expense
should be GRANTED, provided that Appellant returns the completed transcript request form

■

jj.

■
j

according to the instructions provided on the form and by the United States Court of Appeals for
the Fifth Circuit. i
The Clerk is directed to send another copy of the transcript order form and a courtesy copy
of the docket sheet in this case for his use in complying with this Order.
SO ORDERED.
Dated April ($, 2019.

^INGS
/
States District Ji/dgi

i The

Court notes that the Clerk has sent the transcript order form to Appellant’s attention on two separate
occasions, but has yet to receive the completed form from Appellant. As of this date, no transcript has been prepared for
any of the proceedings in this case.

2

B

MdioM RequesUng Tmsctifl Granied
Pfnr.EErtme, IN FniwiA PaijPeRIS

APPEmix

r

Pmh *<2

0

\

Motion To Pnoasto ftt Formft PauPeris
r>N appeal

APPmoix

c
•pj:

fhGBS

. ij?

*-/

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
MITCHELL W. WAGNER,

TDCJ ID No. 01543049,
SID No. 02396387,
Previous TDCJ ID Nos. 00875647,
00995563,
Appellant,
v.
TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, el al.,
Appellee(s).

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. L15-CV-177-C

§
§

USCA NO. 19-10298

§
§
§

ORDER REGARDING MOTION TO PROCEED
IN FORMA PAUPERIS ON APPEAL
Appellant filed a Notice of Appeal dated February 26, 2019*, appealing the Order adopting
the Findings and Recommendations of the United States Magistrate Judge and dismissing certain
claims and Defendants entered January 25, 2019. The Court has considered the Appellant’s
application for leave to proceed in forma pauperis on appeal, the certified trust fund account
statement or institutional equivalent, and all consents and other documents required by the agency
having custody of the Appellant to withdraw funds from the account.
The Court finds that:
[X]

The application for leave to proceed in forma pauperis on appeal pursuant to 28

U.S.C. § 1915 is GRANTED.
Appellant is assessed an initial partial appeal fee of $0.00. The agency having
custody of the Appellant shall collect this amount from the trust fund account or institutional
equivalent, when funds are available, and forward the initial fee to the Clerk of the District
Court.

1 Pursuant to the prison mailbox rule, a prisoner’s pleading is deemed to have been filed on the date that the pro se
prisoner submits the pleading to prison authorities for mailing. Causey v. Cain, 450 F.3d 601,604 (5th Cir.2006)
(citing Houston v. Lack, 487 U.S. 266,270-71, 108 S.Ct. 2379, 101 L.Ed.2d 245 (1988)).

..‘A
.y

(1)

Plaintiff failed to properly exhaust all available administrative remedies pursuant
to 42U.S.C. § 1997e;

(2)

Plaintiffs claims are frivolous, barred by the collateral estoppel doctrine, and fail
to state a claim upon which relief can be granted; and

(3)

Plaintiffs claims are barred by the applicable statute of limitations.

The Court is of the opinion that Defendant’s Motion is unopposed in light of Plaintiff s
failure to respond. The Court further finds that, whether or not Plaintiffs claims are barred by a
failure to exhaust or the statute of limitations, he has failed to state a claim upon which relief can
be granted. Based upon the facts and law stated in Defendant Baldwin’s thorough Motion to
Dismiss, the Court finds that the Motion should be GRANTED pursuant to Fed. R. Civ. P.
12(b)(6) for failure to state a claim.2 Plaintiffs complaint and the remaining claims alleged
against Defendant Baldwin are DISMISSED with prejudice and final judgment will issue in
favor of the Defendant.
SO ORDERED.
Dated March

//

, 2019.

r

[

Senior United States District Jud:

2The Court expressly does not adopt Defendant Baldwin’s assertion that Plaintiff ^claims should be
dismissed pursuant to 42 U.S.C. § I997e, based primarily on Plaintiffs failure to include/copy of his Step 2
grievance with his complaint, as instructed on the form. “Failure to exhaust is an affirmative defense under the
Prison Litigation Reform Act,” so “inmates are not required to specially plead or demonstrate exhaustion in their
complaints.” Jones v. Bock, 549 U.S. 199, 216 (2007). Moreover, district courts cannot “sidestep Jones by
requiring prisoners to affirmatively plead exhaustion.” Carte v. Lappin, 492 F.3d 325, 327-28 (5th Cir. 2007). A
district court “can dismiss a case prior to service on defendants for failure to state a claim, predicated on failure to
exhaust, if the complaint itself makes clear that the prisoner failed to exhaust.” Id. at 328 (citing Jones, 549 U.S. at
215). In this case, the Court cannot conclude that it was clear on the face of the complaint that Plaintiff had failed to
exhaust prior to filing, and the record now before the Court does not establish failure to exhaust as an affirmative
defense.
2

Mi on To Proceed In forma Pauperis
ON APPEAL

APPehd'ix

c

o

Pf}(£ 0

Case l:15-cv-00177-C Document 87 Filed 04/26/19

Page 1 of 1 PagelD 776

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
MITCHELL W. WAGNER,

§
§
§
§
§
§

TDCJ ID No, 01543049,
SID No. 02396387,
Previous TDCJ ID Nos. 00875647,
00995563,
Appellant,

§
§

v.

§

CIVIL ACTION NO. 1:15-CV-177-C

§

TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, et al.,

§

Appellee(s).

§

USCA NO. 19-10298

§
§

ORDER
Before the Court is Appellant’s second Motion Requesting Transcript at Government
Expense dated April 18, 2019 (Doc. 85).

The Court finds that Appellant’s prior Motion

Requesting Transcript at Government Expense was granted by Order entered April 18, 2019,
provided that Appellant returns the completed transcript request form according to the
instructions provided on the form and by the United States Court of Appeals for the Fifth
Circuit.
Appellant’s second Motion Requesting Transcript at Government Expense dated April
18, 2019 (Doc. 85) is DENIED as moot.
SO ORDERED.
Dated April

Sjt

2019.

/

SAjtf R. C
ENGS
Senior UnitecfStates District Judgi

'The Court notes that Appellant’s Transcript Order Form was received by the Clerk on April 25,2019.

Case l:15-cv-00177-C Document 79 Filed 03/26/19

Page 1 of 1 PagelD 552

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
MITCHELL W. WAGNER,

§
§
§
§
§
§
Appellant, §
§
v.
§ CIVIL ACTION NO. 1:15-CV-177-C
§
TEXAS DEPARTMENT OF CRIMINAL
§ USCA NO. 19-10298
JUSTICE, et al.,
§
§
Appellee(s). §

TDCJ ID No. 01543049,
SID No. 02396387,
Previous TDCJ ID Nos. 00875647.
00995563,

JUDGMENT
For the reasons stated in the Court’s Order of even date, it is ORDERED, ADJUDGED,
AND DECREED that Plaintiffs complaint and all remaining claims alleged therein against
Defendant Stanley J. Baldwin are DISMISSED with prejudice.
Dated March, 2019.

f-t

. CUMMINGS
Seni6r United States District Jud:

Case l:15-cv-00177-C Document 78 Filed 03/26/19

Page 1 of 2 PagelD 550

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
MITCHELL W. WAGNER,

§
§
§
§
§
§

TDCJ ID No. 01543049,
SID No. 02396387,
Previous TDCJ ID Nos. 00875647,
00995563,

Appellant, §
§

v.

§ CIVIL ACTION NO. L15-CV-177-C
§

TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, et ah,

§ USCA NO. 19-10298
§
§

Appellee(s). §
Order
On this day, the Court considered Defendant Baldwin’s Motion to Dismiss Pursuant to
Federal Rule of Civil Procedure 12(b)(6) and 42 U.S.C. § 1997e (the “Motion”), filed on
February 14, 2019. By his Motion, Defendant Stanley J. Baldwin, sued in his individual
capacity’, moves to dismiss Plaintiffs complaints that he violated Plaintiffs right to practice his
religion pursuant to the First Amendment and the Religious Land Use and Institutionalized
Persons Act (RLUIPA), and that he subjected Plaintiff to racial discrimination in violation of the
Fourteenth Amendment. Plaintiff did not file any response to the Motion and the time to do so
has expired.
Defendant Baldwin moves to dismiss Plaintiffs remaining claims against him on the
following grounds:

Plaintiff’s official capacity claims against all original Defendants were dismissed with prejudice by Order
entered March 8, 2017.

Case l:15-cv-00177-C Document 78 Filed 03/26/19

(1)

Page 2 of 2 PagelD 551

Plaintiff failed to properly exhaust all available administrative remedies pursuant
to 42 U.S.C. § 1997e;

(2)

Plaintiffs claims are frivolous, barred by the collateral estoppel doctrine, and fail
to state a claim upon which relief can be granted; and

(3)

Plaintiffs claims are barred by the applicable statute of limitations.

The Court is of the opinion that Defendant’s Motion is unopposed in light of Plaintiff s
failure to respond. The Court further finds that, whether or not Plaintiffs claims are barred by a
failure to exhaust or the statute of limitations, he has failed to state a claim upon which relief can
be granted. Based upon the facts and law stated in Defendant Baldwin’s thorough Motion to
Dismiss, the Court finds that the Motion should be GRANTED pursuant to Fed. R. Civ. P.
12(b)(6) for failure to state a claim.2 Plaintiffs complaint and the remaining claims alleged
against Defendant Baldwin are DISMISSED with prejudice and final judgment will issue in
favor of the Defendant.
SO ORDERED.
Dated March

//

, 2019.

*-\

[
GS
Senior United States District Judi

2The Court expressly does not adopt Defendant Baldwin’s assertion that Plaintiff^claims should be
dismissed pursuant to 42 U.S.C. § I997e, based primarily on Plaintiffs failure to incluae^a copy of his Step 2
grievance with his complaint, as instructed on the form. “Failure to exhaust is an affirmative defense under the
Prison Litigation Reform Act,” so “inmates are not required to specially plead or demonstrate exhaustion in their
complaints.” Jones v. Bock, 549 U.S. 199, 216 (2007). Moreover, district courts cannot “sidestep Jones by
requiring prisoners to affirmatively plead exhaustion.” Carbe v. Lappin, 492 F.3d 325, 327-28 (5th Cir. 2007). A
district court “can dismiss a case prior to service on defendants for failure to state a claim, predicated on failure to
exhaust, if the complaint itself makes clear that the prisoner failed to exhaust.” Id. at 328 (citing Jones, 549 U.S. at
215). In this case, the Court cannot conclude that it was clear on the face of the complaint that Plaintiff had failed to
exhaust prior to filing, and the record now before the Court does not establish failure to exhaust as an affirmative
defense.
2

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 1 of 10 PagelD 490

am m district coup

NORTHERN tHST. OF TX
FiLEO
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS,! | a nrj 1c AM 10= 5 6
ABILENE DIVISION
if"

MITCHELL WAGNER,
TDCJ ID #01543049,
Plaintiff,
v.
TEXAS DEPARTMENT OF
CRIMINAL JUSTICE, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

DEPUTY CLERK-i!

CIVIL ACTION NO.
L15-CV-177-BL

Assigned to U.S. Magistrate Judge

REPORT AND RECOMMENDATION
This case was reassigned to the United States Magistrate Judge under Second Amended
Special Order No. 3-301. Although notified of the right to consent to the disposition of this case by
a magistrate judge under 28 U.S.C. § 636(c), all parties have not consented, and therefore the
undersigned magistrate judge enters this report and recommendation under the authority of28 U.S.C.
636(b). Based on the relevant filings and applicable law, Defendant Stanley J. Baldwin’s motion to
partially dismiss should be granted such that Plaintiff’s claims under the Texas Religious Freedom
Restoration Act (TRFRA) should be dismissed for lack of subject matter jurisdiction, Plaintiffs
Motions for the State to Produce Defendants’ Addresses and Plaintiff s Motion for Summary
Judgment should be denied, and Plaintiffs claims against the remaining defendants should be
dismissed for lack of prosecution. After entry of this report and recommendation, the case should
be reassigned to Senior United States District Judge Sam R. Cummings.
I. PROCEDURAL BACKGROUND
Plaintiff Mitchell Wagner, acting pro se, filed this lawsuit under 42 U.S.C. § 1983 seeking
relief from over 25 defendants. Complaint (doc. 1). In response to a Court order, Wagner filed a
more definite statement of his claims. More Definite Statement (MDS) (doc. 22). The Court also

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 2 of 10 PagelD 491

conducted a hearing under Spearsv. McCotter, 766 F.2d 179,181-82 (5th Cir. 1985). Minute Entry
(doc. 31). Through separate orders of partial dismissal and judgments issued under Federal Rule of
Civil Procedure 54(b) the Court dismissed some of Plaintiffs claims against the majority of the
defendants under authority of 28 U.S.C. §§ 1915A and 1915(e)(2)(B). Orders of Partial Dismissal
(docs. 26,34); Rule 54(b) Judgment’s (docs. 27,35). The Court then authorized issuance of service
of process of Wagner’s claims that his rights to practice his religion have been violated under the
First Amendment, under the Religious Land Use and Institutionalized Persons Act (RLUIPA) and
under the TRFRA; and Wagner’s claims that he has been the subject of racial discrimination in
violation of the equal protection clause of the Fourteenth Amendment. See Order Regarding Service
Upon Remaining Defendants (doc. 36) (citing Complaint (doc. 1) and More Definite Statement
(doc. 22).) The remaining defendants upon which the Court allowed issuance of service of process
are Archie D. Scarborough, Keith F. Meeks, Stanley J. Baldwin, Richard Burgess, James Finley,
Clayton Wheeden, and the Texas Kairos Organization. Id. Defendant Stanley J. Baldwin has
appeared through a motion for partial dismissal for lack of subject matter jurisdiction. Mot. Partial
Dismiss (doc. 40). The remaining defendants have not yet been served.
II. BALDWIN’S MOTION FOR PARTIAL DISMISSAL
A.

Standard for a Motion to Dismiss under Rule 12(b)(1)
Defendant Baldwin moves to dismiss Wagner’s claims pursuant to the TRFRA for want of

jurisdiction under Federal Rule of Civil Procedure 12(b)(1). Brief in Support (doc. 41). “When a
Rule 12(b)(1) motion is filed in conjunction with other Rule 12 motions, the court should consider
the Rule 12(b)(1) jurisdictional attack before addressing any attack on the merits.” Randall D.
Wolcott, M.D., P.A. v. Sebelius, 635 F.3d 757, 762 (5th Cir. 2011). A claim may not be dismissed

2

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 3 of 10 PagelD 492

for lack of subject matter jurisdiction unless the claim is “so insubstantial, implausible, foreclosed
by prior decisions of [the Supreme Court], or otherwise completely devoid of merit as not to involve
a federal controversy.” ACS Recovery Services, Inc. v. Griffin, 723 F.3d 518, 523 (5th Cir. 2013)
(citations omitted). A court may find lack of subject matter jurisdiction based on any one of the
following: (1) the complaint alone, (2) the complaint supplemented by undisputed facts evidenced
in the record, or (3) the complaint supplemented by undisputed facts plus the court’s resolution of
disputed facts. Ramming v. United States, 281 F.3d 158, 161 (5th Cir. 2001). “The party asserting
jurisdiction bears the burden of proof for a 12(b)(1) motion to dismiss.” Wolcott, 635 F.3d at 762.
B.

The Court lacks subject-matter jurisdiction over Plaintiffs TRFRA claim.
TRFRA provides a remedy for a person who successfully asserts a claim that his rights of free

exercise of religion are violated. Tex. Civ. Prac. & Rem. Code Ann. § 110.005(a) (West 2011).
TRFRA provides that a cause of action for damages or declaratory or injunctive relief must be
brought against the defendant in the defendant’s official capacity and not in his individual capacity.
Tex. Civ. Prac. & Rem. Code Ann. § 110.005(d) (West 2011). The Eleventh Amendment bars a suit
against an individual for damages in federal court. The Eleventh Amendment bars suit in federal
court against a state, or one of its agencies or departments, regardless of the nature of relief
requested. Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89,100 (1984). Neither Congress
nor the State of Texas has waived Eleventh Amendment immunity with regard to § 1983 cases. See
Will v. Michigan Dept, ofState Police, 491 U.S. 58, 66 (1989) (“Congress, in passing § 1983, had
no intention to disturb the States’ Eleventh Amendment immunity. . ..”). Additionally, a suit for
damages against a state official in his official capacity is not a suit against that individual, but a suit
against the state. Hafer v. Melo, 502 U.S. 21,25 (1991).

3

Case l:l5-cv-00177-C Document 69 Filed 10/16/18

Page 4 of 10 PagelD 493

Because a suit seeking relief under the TRFRA must be brought against the individual in his
official capacity, the State of Texas is the real party in interest. See generally Pennhurst, 465 U.S.
at 101-02,120-21 (noting that the general rule is that relief sought nominally against the officer is
in fact against the sovereign if the decree would operate against the latter) (citations and footnote
omitted). State law cannot be the basis on which a federal court either enters an injunction or an
award of monetary relief against a state. Sossamon v. Lone Star State of Tex., 560 F.3d 316,322 n.5
(5th Cir. 2009), affd, Sossamon v. Texas, 563 U.S. 277 (2011) (citing Pennhurst, 465 U.S. at 117)
(“The reasoning of our recent decisions on sovereign immunity thus leads to the conclusion that a
federal suit against state officials on the basis of state law contravenes the Eleventh Amendment.”).
Accordingly, Wagner’s claims brought under the TRFRA should be dismissed for lack of subject
matter jurisdiction. See McKennie, v. Tex. Dep ’t of Crim. Justice, No. A-09-ca-906-LY, 2011 WL
13237553, at * 3, *9 (W.D. Tex. May 24,201 l)(dismissing TDCJ inmate’s claims under the TRFRA
for want of jurisdiction). Baldwin’s motion for partial dismissal should be granted.
III. DISMISSAL OF UNSERVED DEFENDANTS
A.

Status of Efforts by Attorney General and Court to Serve Defendants
As noted, Stanley Baldwin has appeared in this case. None ofthe other remaining Defendants

has appeared, nor has the Court’s effort to have the United States Marshal attempt to serve process
on two of the Defendants been successful. The Court began its efforts to obtain service by issuing
'“The Fifth Circuit has recognized that when one defending party establishes that the plaintiff has
no cause of action, the defense generally inures also to the benefit of other similarly situated defendants.”
Valencia v. Livingston, EtAl., No. 9:13-cv-043,2016 WL 5339705, at *18 (E.D. Tex. Sep. 2,2016) (noting
that unserved defendant TDCJ employees were entitled to the benefit of the summary judgment motion of
other defendants)(citing Lewis v. Lynn, 236F.3d766,768 (5th Cir. 2001) (quoting United States v. Peerless
Ins. Co., 374 F.2d 942, 945 (4th Cir. 1967) (internal citations and other citations omitted), rep. and rec.
adopted, 2016 WL 5118648 (E.D. Tex. Sep. 20, 2016). Thus, Wagner’s claims under the TRFRA against
any remaining defendant should be dismissed.
4

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 5 of 10 PagelD494

an order, on May 3, 2018, directing the Texas Attorney General (AG) to enter an appearance on
behalf of those TDCJ defendants that were previously employed or still employed. (Doc. 36.)

0).

Defendants Finley, Wheeden, and the Kairos Organization

On June 11, 2018, the AG informed the Court that Defendants James Finley, Clayton
Wheeden and the Kairos organization were never employees of TDCJ, and that the AG did not have
an address for these Defendants. Amicus Mot. Seal at 1, n.l (doc. 42) . The Court then, by order
entered on June 13, 2018, directed Wagner to provide an address for service of process upon
Defendants James Finley, Clayton Wheeden, and the Kairos organization. (Doc. 46.) On June 27,
2018, Wagner filed a document in which he proposed that the Kairos organization could be served
at a Post Office Box address, and that individuals Finley and Wheeden be served through another
individual named Dennis Berry. (Doc. 51). But in an order filed on August 6,2018, the Court denied
Mitchell ’ s requests to effect service in such manner, and informed Wagner of the reasons that Dennis
Berry could not be the agent for service of process on behalf of the Kairos organization or F inley and
Wheeden. (Doc. 60.) The Court then extended the time for Mitchell to provide a proper agent and
address for service upon the Kairos organization, and an address for service of process on Finley and
Wheeden, until August 27,2018. (Doc. 60.)
(2).

Defendant Richard Burgess

On June 22,2018, the AG informed the Court that Richard Burgess was never an employee
of TDCJ and that TDCJ did not have an address for service of process upon him. (Doc. 48.) The
Court then on June 25,2018 directed Wagner to provide an address for service of process on Burgess
by no later than July 25, 2018, and advised Wagner that failure to provide an address for service
upon Burgess could result in the dismissal of Wagner’s claims against Burgess. (Doc. 49.) The

5

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 6 of 10 PagelD 495

Court then extended the time for Wagner to comply until August 27,2018. (Doc. 60.)
(3).

Defendants Archie D. Scarborough and Keith Meeks

The Court also previously ordered the AG to provide addresses for service of process upon
defendants Archie D. Scarborough and Keith D. Meeks. (Doc. 45) The AG complied, by providing
addresses under seal, but the deputy United States Marshal has filed returns of service, un-executed,
showing that Meeks no longer resides at the address provided, and that though the officer attempted
service upon Scarborough several different times, no one was ever home or returned contact to the
Marshal’s office. (Docs. 50, 52, and 55.) The Court subsequently ordered the AG to provide any
additional address information for Scarborough or Meeks, but in response, the AG informed the
Court on July 25, and August 1, respectively, that the AG’s office had no address update or further
information to assist in service upon these two individuals. (Docs. 58, 59.) Thus, as with the other
unserved defendants, the Court again provided Wagner additional time to provide any additional
addresses for service of process upon Defendants Scarborough and Meeks by no later than August
27,2018. (Doc. 60.)
B.
Plaintiffs Motions for the State to Produce Defendants’ Addresses and
for Summary Judgment for Failure to Appear.
Rather than comply with the Court’s orders to provide any additional address information
for these unserved defendants, Wagner filed two motions on August 28,2018. First, Wagner filed
a Motion for the State to Produce all Defendants [sic] Addresses. (Doc. 62.) By the motion, Plaintiff
seeks Defendants’ addresses pursuant to Texas Rule of Civil Procedure (TRCP) 538. Mot. State
Produce Addresses, at 1-2 (doc. 62). Not only was TRCP 538 repealed by Order of April 15,2013
(Tex. Sup. Ct. Order. Misc. Docket No. 13-9049), it is not applicable to federal court proceedings.
Additionally, Defendants’ address information is subject to an exception to the Texas Open Records
6

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 7 of 10 PagelD 496

Act for “information that relates to the home address, home telephone number... [and other contact
information of a] “current or former employee of the Texas Department of Criminal Justice
Tex. Gov’t Code Ann. § 552.117(a)(3) (West Supp. 2017). Under that Act, release of such
information to a person not eligible to receive it is a criminal offense. Tex. Gov’t Code Ann. §
552.352(a) and (b) (West 2012).
Moreover, as recounted above, the AG’s Office has already diligently attempted to obtain
current addresses for these defendants, pursuant to this Court’s prior orders, and was unable to do
so. As provided in the Court’s last order for Wagner to provide addresses for service, it remains his
obligation to provide addresses for service. For all of these reasons, Wagner’s Motion for the State
to Produce All Defendants Addresses should be denied.
Plaintiff also filed a motion for summary judgment based upon the Defendants failure to
appear in this case. (Doc. 63.) Summary judgment is a favored method for resolving cases in which
no genuine issue of material fact exists and the moving party is entitled to judgment as a matter of
law. See, e.g., Celotex v. Catrett, All U.S. 317, 327 (1986) (“Summary judgment procedure is
properly regarded not as a disfavored procedural shortcut, but rather as an integral part of the Federal
Rules as a whole[.]”). “The court shall grant summary judgment if the movant shows that there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “[A dispute] is ‘genuine’ if it is real and substantial, as opposed to merely
formal, pretended, or a sham.” Bazan v. Hidalgo Cnty., 246 F.3d 481,489 (5th Cir. 2001) (citation
omitted). A fact is “material” if it “might affect the outcome of the suit under governing law.”
Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986). “The movant bears the burden of
identifying those portions of the record it believes demonstrate the absence of a genuine issue of

7

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 8 of 10 PagelD 497

material fact.” Triple Tee Golf, Inc. v. Nike, Inc., 485 F.3d 253, 261 (5th Cir. 2007) (citation
omitted).
Plaintiff’s Motion for Summary Judgment for Failure to Appear is without merit. Plaintiff
has an obligation per this Court’s order to provide the listed Defendants’ addresses. (Doc. 60.)
Plaintiff does not explain in this motion his failure to adhere to his Court-ordered obligation. (Doc.
63.) Plaintiff cites no case law and provides no legal theory in his motion, nor does he suggest any
valid legal basis through which he can obtain summary judgment. In this regard, as noted throughout
this report and recommendation, other than Baldwin, no remaining Defendant has yet been served
in this matter. Plaintiff cannot take a summary judgment against a defendant that has not even
appeared in this case. Accordingly, Plaintiffs Motion for Summary Judgment for Failure to Appear
should be denied.
C.

Federal Rule of Civil Procedure 41(b).
Rule 41(b) of the Federal Rules of Civil Procedure permits a court to dismiss an action sua

sponte for failure to prosecute or follow orders ofthe court. McCullough v. Lynaugh, 835 F.2d 1126,.
1127 (5th Cir. 1988) (§ 1983 prisoner action). This authority flows from a court’s inherent power
to control its docket, prevent undue delays in the disposition of pending cases, and avoid congested
court calendars. Link v. Wabash R.R. Co., 370 U.S. 626, 629-31 (1962). The Court repeatedly
warned Wagner that it was his obligation to obtain and provide addresses for service of process on
the remaining Defendants, and informed him that failure to do so could result in the dismissal of his
claims against the remaining defendants for lack of prosecution under Rule 41(b). Because Wagner
has failed to provide addresses in response to the Court’s orders, his claims against the remaining
unserved Defendants should be dismissed without prejudice for lack of prosecution.

8

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 9 of 10 PagelD 498

IV. RECOMMENDATION
For the foregoing reasons, it is RECOMMENDED that Defendant Stanley Baldwin’s
motion for partial dismissal (doc. 40) be GRANTED, such that all Plaintiff Wagner’s claims under
the Texas Religious Freedom Restoration Act (TRFRA) be DISMISSED for lack of jurisdiction.
It is further RECOMMENDED that Plaintiff Wagner’s motions for the state to produce all
Defendants’ addresses (doc. 62), and for summary judgment (doc. 63), be DENIED. It is further
RECOMMENDED that all Plaintiffs claims against the remaining unserved Defendants, that is
Archie D. Scarborough, Keith F. Meeks, Richard Burgess, James Finley, Clayton Wheeden, and the
Texas Kairos organization, be DISMISSED without prejudice under Federal Rule of Civil
Procedure 41(b).
A copy of this Report and Recommendation shall be served on all parties in the manner
provided by law.
Any party may object to this Report and Recommendation. A party who objects to any part
of this Report and Recommendation must file specific written objections within fourteen (14) days
after being served with a copy. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). In order to be
specific, an objection must identify the specific finding or recommendation to which objection is
made, state the basis for the objection, and identify the place in the magistrate judge’s report and
recommendation where the disputed determination is found. An objection that merely incorporates
by reference or refers to the briefing before the magistrate judge is not specific. The failure to file
specific written objections will bar the aggrieved party from attacking on appeal the factual findings,
legal conclusions, and recommendation set forth by the magistrate judge that are accepted or adopted
by the district court, except upon grounds of plain error. See Douglass v. United Servs. Automobile
Ass'n, 79 F.3d 1415, 1417 (5th Cir. 1996) (en banc), superceded by statute on other grounds, 28
9

Case l:15-cv-00177-C Document 69 Filed 10/16/18

Page 10 of 10 PagelD499

U.S.C. § 631(b)(1) (extending the time to file objections from ten to fourteen days), as recognized
in ACS Recovery Servs., Inc. V Griffin, 676 F.3d 512, 521 n. 5 (5th Cir. 2012).
SO ORDERED.
Signed October/^ . 2018.

E. SCOTT FROST
UNITED STATES MAGISTRATE JUDGE

10

